No. 19-560

In the
Supreme Court of the United States
cece cee neeee cee eeececeeceeeeeeeee Qacceceececce cee ceeneceenneceeneee

Jennie Nicassio, Petitioner
v.
Viacom International, Inc., and
Penguin Random House, LLC, Respondents.

wee eee ne eee en eee eee ee Q nn nn cence cee ee cee nee eee ence

CERTIFICATION OF SERVICE

wee eee ne eee en eee eee ee Q anne cnc nec eee cee cee eee ence

I HEREBY CERTIFY that on January 10, 2020, the PETITION FOR
REHEARING in the above-captioned case was served together with a

Certification of Counsel under Rule 44.2 and a Certificate of Compliance by
email to:

Loeb & Loeb, LLP
Wook Hwang, Esq.
345 Park Avenue
New York, NY 10154
(212) 407-4000

At email address whwang@loeb.com

Executed on January 10, 2020.

ANTHONY H. HANDAL
Counsel of Record

HANDAL & MOROFSKY

83 East Avenue, Ste. 308

Norwalk, CT 06851

(917) 880-0811

handal@handalglobal.com
